Mem
  morandum from
              m the Office of th
                               he Inspector Ge
                                             eneral



Ma
 ay 3, 2013

Kattherine J. Black, LP 3A-C
S. Russ Stewa  ard, LP 4W-C
                          C

RE
 EQUEST FOR FINAL AC
                   CTION – AUDIT 2012-14
                                       4669 – AUD
                                                DIT OF TVA'S
                                                           S VEHICLE
ALLOWANCE AND ASSIGGNED VEHICCLE PROGR RAMS



Atta
   ached is the
              e subject fina
                           al report for your
                                         y    review and final acction. Your wwritten
com
  mments, which addresse    ed your man nagement de  ecision and aactions planned or taken n,
havve been included in the report. Plea                                       he date of thiis
                                        ase notify uss within one yyear from th
meemorandum when
               w     final action
                           a      is com
                                       mplete.

Info
   ormation con
              ntained in th
                          his report ma ay be subjecct to public disclosure. P
                                                                             Please advisse us
of any
   a sensitivee informationn in this repo
                                        ort that you rrecommend be withheld  d.

If you
   y have any  y questions or
                            o wish to discuss our finndings, plea
                                                                ase contact Jennifer R.
Torrregiano, Se
              enior Auditorr, at (865) 63
                                        33-7372 or RRick C. Undeerwood, Direector, Corporate
Governance an  nd Finance Audits,
                           A        at (42
                                         23) 785-48224. We apprreciate the ccourtesy and
                                                                                       d
coooperation rec
               ceived from your staff du uring the aud
                                                     dit.




David P. Wheeeler
Deputy Assista
             ant Inspectorr General
 (A
  Audits)
ET 3C-K

JRTT:DBS
Atta
   achment
cc (Attachmentt):
      Gregory F.F Barker, WT
                          W 8D-K                      R. M
                                                         Michele Lanccaster, LP 4W
                                                                                 W-C
      R. Phillip Essary, GA
                          AC 1A-C                     Rich
                                                         hard W. Moo  ore, ET 4C-K
                                                                                 K
      Donna G. Golden, LP P 3A-C                      Emi ly J. Reynolds, OCP 1L--NST
      Peyton T. Hairston, Jr.,
                          J WT 7B-K
                                  K                   Robbert B. Wellss, WT 9B-K
      Janet Herrin, WT 7A--K                          And rea L. Willia
                                                                      ams, WT 9B--K
      Joseph J. Hoagland, WT 7C-K                     OIG
                                                        G File No. 2012-14669
      William D.
               D Johnson, WT
                           W 7B-K
        
 


                                         Audit Report
 
Office
      of the Inspector General                                      

                                     To the Vice President, Human
                                     Resources, and to the Vice  
                                     President, Supply Chain 
                                                                    

 

 

 

 

AUDIT OF TVA’S VEHICLE
 


ALLOWANCE AND
 

 
ASSIGNED VEHICLE
PROGRAMS 
 

 




 

 
 
 

 
Auditor                                             Audit 2012-14669
Jennifer R. Torregiano                                   May 3, 2013


                                  
Office of the Inspector General                           Audit Report




ABBREVIATIONS
CAO                        Chief Administrative Officer
CEO                        Chief Executive Officer
COO                        Chief Operating Officer
EVP                        Executive Vice President
FY                         Fiscal Year
TVA                        Tennessee Valley Authority
VP                         Vice President




Audit 2012-14669
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVES, SCOPE, AND METHODOLOGY ..................................... 2

FINDINGS ......................................................................................................... 3

    VEHICLE ALLOWANCE ELIGIBILITY DOCUMENTATION
    AND OTHER ADMINISTRATIVE MATTERS .................................................. 3

    ASSIGNED VEHICLE PROGRAM DOCUMENTATION
    NEEDS IMPROVEMENT ................................................................................ 5

    COST EFFECTIVENESS OF PROGRAMS .................................................... 7

RECOMMENDATIONS .................................................................................. 7


APPENDICES
A. OBJECTIVES, SCOPE, AND METHODOLOGY

B. MEMORANDUM DATED APRIL 29, 2013, FROM KATHERINE J. BLACK
   AND RUSS STEWARD TO DAVID P. WHEELER




Audit 2012-14669
               Auddit 2012-1
                           14669 – R
                                   Review off TVA’s V
                                                    Vehicle
               Allowance and
                           a Assigned Veh  hicle Prog
                                                    grams
                             EXECUTIV
                                    VE SUMM
                                          MARY

Why the
      e OIG Did This
                T    Audit

  The Tennessee
       T           Valley Auth hority (TVA A) provides biweekly ve  ehicle
  allowances to eligible office
                              ers and keyy managerss in accorda    ance with
  Vehiccle Allowance Guidelin nes that we  ere effective
                                                       e April 1, 20
                                                                   006.
  Additionally, TVAA maintains s a light flee
                                            et of about 2,900 vehicles, whichh are
  availa
       able for ass
                  signment to o any TVA e   employee w with a businness need.
  Businness units with
                  w an assiigned vehiccle pay a m     monthly fee tto TVA Fleeet
  Services for usee of the vehicle. In fisccal year 20111, TVA pa  aid $648,050 in
  vehic
      cle allowancces to 65 em mployees. Also, busin   ness units p paid
  approoximately $9.66 millionn in monthlyy fees durin ng fiscal year 2011 to
  Fleet for use of assigned
                   a         veehicles.

  We scheduled an  a audit of TVA’s
                                T      vehiccle allowancce and assigned vehiccle
  progrrams to dete ermine the cost effect iveness of the program ms and if
  propeer controls were
                    w     in plac
                                ce to ensurre program eligibility g
                                                                  guidelines w
                                                                             were
  beingg met. Our specific audit objectivves were to determine if (1) TVA
  emplo oyees receiving vehiclle allowancces met esta   ablished eligibility
  requirrements an nd if proper controls we ere in place
                                                       e to determ
                                                                 mine eligibilitty
  criteriia were met, (2) TVA employees
                                e            with assign
                                                       ned vehiclees met
  estabblished crite
                   eria for having an assig gned vehicle and if prooper controols
  were in place to determine eligibility c riteria weree met, and ((3) the costt
  effecttiveness of both the ve ehicle allow
                                           wance and a assigned ve ehicle
  progrrams.

What the
       e OIG Foun
                nd

  Our audit
      a     of TVA
                 A’s vehicle allowance a
                                       and assign
                                                ned vehicle programs
  found
      d:

     TVA
      T     does not documen     nt how officcers and ke
                                                       ey managerrs who are paid
      vehicle
      v        allow
                   wances meet the “bus iness need     d” eligibility criteria
      specified
      s          in TVA’s Vehicle Allowa nce Progra    am guideline   es. Based on
      th
       he available e data, it ap
                                ppears a larrge percenttage of the personnel who
      re
       eceive vehiicle allowan  nces may n  not meet TVVA’s stated criteria of
      significant
      s            business
                   b          rellated travel . We also noted seve   eral
      administrativ
      a             ve matters within the g  guidance th
                                                       hat are not followed.
     TVA’s
      T      Fleet manageme ent did not maintain adequate do ocumentatioon to
      validate
      v        the adequacy of TVA’s coontrols over vehicle asssignmentss.




                                                                             P
                                                                             Page i
               Auddit 2012-1
                           14669 – R
                                   Review off TVA’s V
                                                    Vehicle
               Allowance and
                           a Assigned Veh  hicle Prog
                                                    grams
                             EXECUTIV
                                    VE SUMM
                                          MARY

  Additionally, we were unab  ble to determ
                                          mine which program iss more costt
  effecttive becausse data obtaained durin g the audit indicated tthe cost
  differe
        ential betweeen the twoo programss was small. Howeverr, overall co    ost
  savings may be available because
                              b         the
                                          ere are individuals who  o either recceive
  a vehhicle allowance or have e an assignned vehicle who do no ot appear to  o
  have a business  s need for th
                               he allowancce or vehiccle.

What the
       e OIG Reco
                ommends

  We re
      ecommend TVA’s Vice
                        e Presidentt (VP), Hum
                                             man Resourrces:

     Maintain the documenta    ation used tto determin ne if an emp
                                                                   ployee
      (1) meets the
                  e eligibility requiremen
                                r           nts of a “bussiness need
                                                                   d” for a veh
                                                                              hicle
      allowance annd (2) is still eligible for a vehicle allowance after a job
      ch
       hange.
     Peeriodically review
                    r      the mileage
                                m         dri ven by emp
                                                       ployees proovided a
      ve
       ehicle allowwance based  d on the 13 3,000 miles per year criteria and
      de
       etermine if the
                    t allowan  nce is still w
                                            warranted. Documenta  ation of thiss
      re
       eview and th he basis forr any determ minations m
                                                       made shoulld be
      maintained.
     Uppdate the Vehicle
                  V       Allo
                             owance Gui delines to rreflect chan
                                                               nges in the
      re
       equired appprovals and review the guidelines periodically for any
      re
       equired changes. Obta  ain the Pressident & Ch
                                                    hief Executive Officer’ss
      ap
       pproval on any
                   a change   es made to the Vehiclee Allowance Guideline es.
     Co
       oordinate with
                  w Fleet to  o ensure inddividuals w
                                                    with vehicle allowancess do
      no
       ot have a veehicle assig
                              gned in their name, an nd ensure FFleet is mad
                                                                           de
      aw
       ware of indiividuals rec
                              ceiving a ve
                                         ehicle allow
                                                    wance in thee future.
     Re
       eview the business
                  b         drriving needss of employyees curren ntly receivin
                                                                             ng
      ve
       ehicle allow
                  wances to de etermine if there is a ttrue business need forr
      ea
       ach individu
                  ual to have the allowan nces.

  We re
      ecommend TVA’s VP, Supply Ch
                                 hain:

     Maintain all approved
                   a        TVA
                            T   Forms 9314A in a
                                               accordance with TVA-S
                                                                   SPP-
      31
       1.01.
     Eiither (1) ens
                    sure TVA Form
                               F      9314A A is updated
                                                       d when an assigned
      ve
       ehicle is repplaced, or (2
                                2) develop a new proccess for doccumenting
      whhen an ass signed vehic cle is replacced.



                                                                               P
                                                                               Page ii
               Auddit 2012-1
                           14669 – R
                                   Review off TVA’s V
                                                    Vehicle
               Allowance and
                           a Assigned Veh  hicle Prog
                                                    grams
                            EXECUTIV
                                   VE SUMM
                                         MARY

     Re
       eview the business
                  b         drriving needss of employyees currenntly receivin
                                                                            ng
      as
       ssigned vehhicles to de
                             etermine if t here is a true business need for
      ea          ual to have the vehicle
       ach individu                      es.

TVA Man
      nagement’’s Commen
                       nts

  TVA manageme
       m         ent agreed with
                             w the aud   dit findings and recom
                                                              mmendation
                                                                       ns in
  the re
       eport and has taken orr plans to ta
                                         ake corrective actions. See
  Appendix B for TVA
                  T    managgement’s co  omplete ressponse.

Auditor’s Respons
                se

  The Office
      O      of the
                  e Inspector General ge
                                       enerally concurs with tthe actionss
  taken
      n and planned by TVA manageme    ent.




                                                                           P
                                                                           Page iii
Office of the Inspector General                                                                      Audit Report


BACKGROUND
During fiscal year (FY) 2011, the Tennessee Valley Authority (TVA) business
units were billed about $9.66 million for the use of vehicles assigned to them by
TVA’s Fleet Services. Additionally, TVA paid $648,050 in vehicle allowances to
65 officers and key managers in lieu of providing them with an assigned vehicle
or another means of transportation.1 Based on the significance of the costs
incurred for the vehicle assignments and allowances, we scheduled an audit to
determine the cost effectiveness of the programs and if proper controls were in
place to ensure program eligibility guidelines were being met. The specific
details of each of these programs are summarized below.

Vehicle Allowance Program
In March 2006, TVA developed Vehicle Allowance Guidelines for officers and key
managers whose job responsibilities require significant business-related travel.
The guidelines, which were effective April 1, 2006, provided for TVA to pay a flat-
dollar biweekly allowance to authorized officers and key managers.2 The Vehicle
Allowance Program guidelines include the following eligibility criteria:

Officers and key managers who meet one or more of the following requirements
are eligible to receive a vehicle allowance:

    Engage in extensive business-related travel during the year (13,000 miles or
     more).
    Serve in a position that is subject to frequent call out at any day or hour.
    As otherwise approved by the President & Chief Operating Officer (COO) and
     Chief Administrative Officer (CAO) & Executive Vice President (EVP),
     Administrative Services.

Vehicle allowances are granted on a “business need” basis and must be
approved jointly by the President & COO and the CAO & EVP, Administrative
Services

Additionally, the guidelines (1) stated any employee who receives a vehicle
allowance is not eligible to have a TVA vehicle assigned to them and (2) included
biweekly and annual vehicle allowance amounts for various eligible positions.
The annual allowances ranged from $6,500 for key managers to $11,700 for

1
    During FY2012, TVA received an Open Line question regarding the payment of car allowances to
    executives. In response to the question, TVA stated an automobile allowance program is provided to
    officers and key managers whose job responsibilities require extensive business-related travel. TVA
    further stated to be eligible for the allowance, an executive must engage in extensive business-related
    travel during the year (13,000 miles or more), serve in a position that is subject to frequent call out at any
    day or hour, and be approved by the Chief Executive Officer (CEO). According to TVA’s response,
    approximately two-thirds of its executive population receives the taxable benefit, and payments range
    from $6,500 – $11,700 annually.
2
    Prior to implementing the vehicle allowance program, lump-sum cash payments were provided that could
    be applied to the purchase or lease of a vehicle for a specified period (typically 36 months).
Audit 2012-14669                                                                                          Page 1
Office of the Inspector General                                                                    Audit Report


Nuclear Site Vice Presidents (VP) and EVPs. During FY2011, $648,050 was
paid in vehicle allowances to 65 employees. This amount increased to $666,750
in FY2012.

Assigned Vehicle Program
TVA maintains a light fleet of about 2,900 vehicles for employees to use.3 About
500 of the vehicles are sedans available for assignment to employees with a
business need for a vehicle for 6 months or more. Business units pay monthly
fees to Fleet for each assigned vehicle based on rates designed to encompass
the costs Fleet incurs for the vehicle.

According to Fleet management, assigned sedans should be used about
13,000 miles per year for the business unit to maximize their investment.
Business units are provided monthly cost and usage reports, which include the
mileage of the vehicle. Although sedans do not have to be returned if they are
driven less than 13,000 miles a year, Fleet will encourage business units to
determine if a rental vehicle or WeCar4 would be a better alternative.

To receive an assigned vehicle, employees submit TVA Form 9314A to Fleet.
The form includes the purpose/justification for the vehicle, a description of the
type of vehicle needed, and the signatures of the requestor and the requestor’s
manager. A Fleet Representative signs the form and obtains approval from the
business unit VP. Additionally, there is a section for the description of the vehicle
being replaced, if applicable.

Fleet allows an individual to have multiple vehicles assigned in its name. This is
a common occurrence, as many organizations have small pools of vehicles for
use rather than vehicles assigned to specific individuals. In FY2011, TVA’s
business units reimbursed approximately $9.66 million to Fleet for the use of their
assigned vehicles. This amount included $1.6 million for sedans.

OBJECTIVES, SCOPE, AND METHODOLOGY
We scheduled an audit of TVA’s vehicle allowance and assigned vehicle
programs to determine the cost effectiveness of the programs and if proper
controls were in place to ensure program eligibility guidelines were being met.
A complete discussion of our audit objectives, scope, and methodology are
included in Appendix A to this report.




3
    The light fleet includes vehicles up to 1.5 tons and does not include heavy fleet vehicles (trucks 2 tons or
    larger) and equipment managed outside of Supply Chain Fleet management. This data is as of
    July 2012.
4
    WeCar is a membership-based, car-sharing program through Enterprise that provides a totally
    automated transportation solution.
Audit 2012-14669                                                                                         Page 2
Office of the Inspector General                                          Audit Report


FINDINGS
Our audit of TVA’s vehicle allowance and assigned vehicle programs found:

   TVA does not document how officers and key managers who are paid vehicle
    allowances meet the “business need” eligibility criteria specified in TVA’s
    Vehicle Allowance Program guidelines. Based on the available data, it
    appears a large percentage of the personnel who receive vehicle allowances
    may not meet TVA’s stated criteria of significant business related travel. We
    also noted several administrative matters within the guidance that are not
    followed.
   TVA’s Fleet management did not maintain adequate documentation to
    validate the adequacy of TVA’s controls over vehicle assignments.

Also, we were unable to determine which program is more cost effective because
data obtained during the audit indicated the cost differential between the two
programs was small. However, overall cost savings may be available because
there are individuals who either receive a vehicle allowance or have an assigned
vehicle who do not appear to have a business need for the allowance or vehicle.

The following provides a detailed discussion of each of our findings.

VEHICLE ALLOWANCE ELIGIBILITY DOCUMENTATION AND
OTHER ADMINISTRATIVE MATTERS
As discussed in the Background section of this report, in April 2006, TVA
instituted Vehicle Allowance Guidelines for officers and key managers whose job
responsibilities require significant business-related travel. Vehicle allowances
are granted on a “business need” basis and must be approved jointly by the
President & COO and the CAO & EVP, Administrative Services. During FY2011,
TVA provided $648,050 in vehicle allowances to 65 employees. This
expenditure increased to $666,750 in FY2012.

As discussed further below, our audit of TVA’s Vehicle Allowance Program found
(1) TVA does not generally document the business need for providing vehicle
allowances to employees and (2) instances of noncompliance with the
administration of the guidelines.

Limited Documentation of Eligibility Criteria for Significant Business
Related Travel
TVA’s Vehicle Allowance Guidelines state vehicle allowances are granted to
officers and key managers on a “business need” basis. The specific criteria for
determining eligibility to receive an allowance included (1) engaging in extensive
business-related travel during the year (13,000 miles or more) or (2) serving in a
position is subject to frequent call out at any day or hour. TVA management
informed us TVA’s Compensation group works with Employee Relations to
determine if an employee needs a vehicle allowance.
Audit 2012-14669                                                              Page 3
Office of the Inspector General                                                              Audit Report


To determine if the vehicle allowance guidelines were being followed, we
reviewed the approval documentation for 37 of 71 employees who received a
vehicle allowance at any time during FY2010 or FY2011. We found 34 of these
(92 percent) did not include a discussion of the eligibility criteria the employee
met. The remaining 3 approval requests specifically mentioned extensive
business-related travel as the reason for eligibility, while 2 of these also
mentioned specific mileage amounts.

Because the supporting documentation provided by TVA did not state which
eligibility criteria employees receiving the vehicle allowance met in 92 percent of
the cases sampled, we performed additional testing to ascertain qualification
under the guidelines.

    To determine if those receiving vehicle allowances qualified by driving
     13,000 miles or more a year, we reviewed data from the TVA Expense
     Reimbursement System.5 As summarized in the following table, 55 of the
     71 employees who received a vehicle allowance claimed less than
     13,000 miles per year for reimbursement.

                                 Average Annual Miles Claimed by
                              Employees Receiving Vehicle Allowances
                                       Miles Claimed            Employees
                                              0                     5
                                          1 – 3,000                 6
                                        3,001 – 6,000              10
                                        6,001 – 9,000              16
                                       9,001 – 13,000              18
                                   Subtotal Below 13,000           55
                                     More than 13,000              16
                                  Total                            71
                                                                     Table 1

     For the 2 employees whose allowance approvals stated they would drive over
     20,000 miles per year, one claimed mileage reimbursement for 5,604 miles
     over a 13-month period and the other claimed mileage reimbursement for
     10,625 miles over a 15-month period.
    To determine if those receiving vehicle allowances qualified because they
     serve in a position subject to frequent call out, we requested job descriptions
     for the positions held by the 37 individuals in our sample. Because of position
     changes for the individuals in our sample, we requested 55 different job
     descriptions. TVA initially provided 20 of these, and our review noted none of
     the job descriptions mentioned travel or call-out requirements. We discussed
     this with TVA personnel who stated they did not believe we would find any
     specific language on the remaining job descriptions either. As a result, we did


5
    Employees receiving a vehicle allowance are also able to receive a reduced mileage reimbursement rate
    when using their vehicle for business-related travel.
Audit 2012-14669                                                                                  Page 4
Office of the Inspector General                                                              Audit Report


     not ask TVA to continue attempting to obtain the remaining 34 job
     descriptions.

In summary, based on the available data, it appears a large percentage of the
personnel who receive vehicle allowances may not meet TVA’s stated criteria of
significant business related travel or being subject to frequent call out.

Other Instances of Noncompliance With the Guidelines
In addition to the eligibility criteria discussed above, the vehicle allowance
guidelines state vehicle allowances must be approved jointly by the President &
COO and the CAO & EVP, Administrative Services.6 Also, the guidelines state
any employee who receives a vehicle allowance is not eligible to have a TVA
vehicle assigned to them. However, as discussed below, we found TVA did not
follow the guidance.

    Sixteen of the thirty-seven (43 percent) sampled approval requests were not
     approved by the CAO & EVP, Administrative Services. According to TVA
     personnel, the reason for not requiring the approval of the CAO & EVP,
     Administrative Services, is because in establishing the TVA Compensation
     Plan in May 2007, the TVA Board delegated to the CEO the authority to
     approve all personnel and compensation actions for which the TVA Board is
     responsible but has not reserved for itself to approve.
    Six of the seventy-one (8.45 percent) employees who received a vehicle
     allowance during FY2010 or FY2011 also had an assigned vehicle at some
     point during that time. This apparently occurred because Fleet allows an
     individual to have multiple vehicles assigned in their name, regardless of
     whether or not they are the individual using the vehicle. However, since it is
     explicitly mentioned in the guidelines, employees with vehicle allowances
     should not have vehicles assigned in their name.

ASSIGNED VEHICLE PROGRAM DOCUMENTATION NEEDS
IMPROVEMENT
TVA maintains a light fleet of about 2,900 vehicles including about 500 sedans
available for assignment to employees with a business need for a vehicle for
6 months or more. To receive an assigned vehicle, employees submit TVA Form
9314A to Fleet. The form includes the purpose/justification for the vehicle, a
description of the type of vehicle needed, and the signatures of the requestor and
the requestor’s manager. Additionally, there is a section for the description of the
vehicle being replaced, if applicable.

To determine the adequacy of the vehicle assignment controls and the cost
effectiveness of the vehicle assignments, we selected a sample of 200 of the

6
    The President & COO was appointed President and CEO in October 2010. Also, the CAO & EVP,
    Administrative Services, position was eliminated for a time period beginning in March 2010. The
    guidelines were not updated to reflect these changes.
Audit 2012-14669                                                                                  Page 5
Office of the Inspector General                                          Audit Report


vehicles assigned at September 30, 2010, and September 30, 2011. As
discussed below, we (1) requested the corresponding TVA Form 9314A for each
vehicle assignment and (2) reviewed mileage data for the 30 sedans included in
our sample.

Inadequate Documentation of Approval Forms
Fleet management was only able to provide 16 (8 percent) of the requested
forms. For the remaining 184 forms, Fleet management offered the following
explanations:

   Sixty-six forms were not available because the vehicle in question was a
    replacement for another vehicle previously assigned to the business unit.
   Sixty-two forms could not be located.
   Fifty-six forms were no longer available because forms submitted prior to
    2008 were not maintained.

Although the 16 forms Fleet management was able to provide (1) included the
necessary approvals and (2) had vehicle requests that matched the description
of the vehicle provided, we could not validate the adequacy of TVA’s controls
over vehicle assignments due to the high number of missing forms.

Cost Effectiveness of Vehicle Assignments
TVA’s vehicle fleet includes about 500 sedans assigned to employees with a
business need for a vehicle for 6 months or more. According to Fleet
management, assigned vehicles should be used about 13,000 miles per year for
the business unit to maximize their investment. Fleet management stated
monthly cost and usage reports are provided to business units that includes the
mileage of the vehicle. Although sedans driven less than 13,000 miles do not
have to be returned, Fleet management stated it is up to the business unit to
determine if they want to keep the sedan or find an alternate source, such as a
rental, to fulfill their requirements.

We reviewed the mileage data for the                     Average Miles Driven
30 sedans included in our sample. As                      Assigned Vehicles
summarized in the accompanying table, 14 of          Average Annual     Number of
the sedans were not driven 13,000 miles in a           Miles Driven      Vehicles 
year (or had less than 12 months of data and                0               1
                                                        1 – 3,000           1
were not on track to be driven 13,000 miles in
                                                      3,001 – 6,000         2
a year). However, we noted cost and usage             6,001 – 9,000         2
reports had been provided to the business            9,001 – 12,999         8
units for all vehicles in our sample.                13,000 or more        16
                                                    Total                  30
                                                                                Table 2




Audit 2012-14669                                                                Page 6
Office of the Inspector General                                                              Audit Report


COST EFFECTIVENESS OF PROGRAMS
As previously discussed, TVA spent $648,000 on the Vehicle Allowance Program
in FY2011. This amount increased to $666,750 during FY2012. During
September 2012, 57 individuals were receiving vehicle allowances, which totaled
$46,800 for the month, resulting in an average cost of $821 per individual, per
month, for the current vehicle allowance program. (Additionally, individuals who
receive vehicle allowances are also able to receive a reduced mileage
reimbursement rate when using their vehicle for business travel.)

We compared this cost to the cost of assigned vehicles provided to individuals by
Fleet management. Documentation provided by Fleet management indicated the
average monthly cost of an assigned mid-sized sedan in September 2012 was
$370 (average cost for a new sedan). In addition, those with an assigned vehicle
use a TVA credit card to purchase fuel, which costs TVA an estimated $235 per
month, per vehicle based on current fuel prices.7

We estimated TVA could save approximately $150,000 per year by providing
sedans to individuals who are currently paid vehicle allowances. However, we
recognize there may be offsetting factors (such as TVA’s assumed liability risk for
assigned vehicles) that make it difficult to determine which program is most cost
effective. However, TVA’s mileage records indicate there may be individuals
who are receiving vehicle allowances or have an assigned vehicle without a
business need for the allowance or vehicle.

RECOMMENDATIONS
1. We recommend TVA’s VP, Human Resources:

        Maintain the documentation used to determine if an employee (1) meets
         the eligibility requirements of a “business need” for a vehicle allowance
         and (2) is still eligible for a vehicle allowance after a job change.
        Periodically review the mileage driven by employees provided a vehicle
         allowance based on the 13,000 miles per year criteria and determine if the
         allowance is still warranted. Documentation of this review and the basis
         for any determinations made should be maintained.
        Update the Vehicle Allowance Guidelines to reflect changes in the
         required approvals and review the guidelines periodically for any required
         changes. Obtain the President & CEO’s approval on any changes made
         to the Vehicle Allowance Guidelines.




7
    According to September 2011 fuel data provided by Fleet, the average amount of fuel purchased for
    mid-size sedans in September 2011 was 67 gallons. At current fuel prices, that would equate to
    approximately $235 per month.
Audit 2012-14669                                                                                   Page 7
Office of the Inspector General                                           Audit Report


        Coordinate with Fleet to ensure individuals with vehicle allowances do not
         have a vehicle assigned in their name, and ensure Fleet is made aware of
         individuals receiving a vehicle allowance in the future.
        Review the business driving needs of employees currently receiving
         vehicle allowances to determine if there is a true business need for each
         individual to have the allowances.

    TVA Management’s Comments - In response to our draft report TVA
    management stated:

        Human Resources will (1) ensure management provides adequate
         justification prior to recommending that an employee receive a vehicle
         allowance, or continue to receive a vehicle allowance following a change
         in position and (2) document the justification for a vehicle allowance in
         future requests.
        Human Resources will conduct a review of the business related mileage
         expected and reported by employees who currently receive a vehicle
         allowance by June 30, 2013, and will continue to conduct reviews on a
         periodic basis.
        TVA is currently reviewing the Guidelines and plan to submit an update,
         Including changes in required approvals and other possible recommended
         changes to the CEO for approval by June 30, 2013. Human Resources
         also ensured that the Guidelines will be periodically reviewed and updated
         at least once every two years.
        Human Resources, Executive Compensation, and Supply Chain, Fleet
         Services, has put a process in place to ensure that Fleet Services is
         notified whenever an employee is approved to begin receiving a vehicle
         allowance.
        TVA would conduct a comprehensive review to ensure that all employees
         who currently receive a vehicle allowance meet the requirements of a
         “business need” for the allowance by June 30, 2013.

    See Appendix B for TVA management’s complete response.

    Auditor’s Response – The Office of the Inspector General concurs with the
    actions taken and planned by TVA management.

2. We recommend TVA’s VP, Supply Chain:

        Maintain all approved TVA Form 9314As in accordance with TVA-SPP-
         31.01.
        Either (1) ensure TVA Form 9314A is updated when an assigned vehicle
         is replaced, or (2) develop a new process for documenting when an
         assigned vehicle is replaced.
Audit 2012-14669                                                               Page 8
Office of the Inspector General                                           Audit Report


        Review the business driving needs of employee’s currently receiving
         assigned vehicles to determine if there is a true business need for each
         individual to have the vehicles.

    TVA Management’s Comments – In response to our draft report, TVA
    management stated Supply Chain has implemented a document retention
    process that establishes all vehicle records will be maintained for a period of
    7 years after the disposal of the vehicle. Also, going forward, all replacement
    vehicles will require business unit verification of vehicle specifications, and
    approval will be required from a VP or higher.

    Management also stated Supply Chain continually works to refine the
    management of the assigned vehicle program. Monthly vehicle usage reports
    are provided to each strategic business unit/business unit and underutilized
    vehicles challenged. In addition, personally owned vehicle reimbursements
    and rental activity are reviewed to help with the optimization of all modes of
    employee travel.

    See Appendix B for TVA management’s complete response.

    Auditor’s Response – The Office of the Inspector General generally concurs
    with the actions taken and planned by TVA management. As noted by
    management, monthly vehicle usage reports are provided to each strategic
    business unit/business unit. However, since it is up to the business unit to
    determine if it wants to keep vehicles that are not fully utilized, Fleet
    management may want to consider providing periodic usage reports of
    underutilized assigned vehicles to TVA senior management.




Audit 2012-14669                                                               Page 9
                                                                       APPENDIX A
                                                                        Page 1 of 2

OBJECTIVES, SCOPE, AND METHODOLOGY
We scheduled an audit of Tennessee Valley Authority’s (TVA) vehicle allowance
and assigned vehicle programs to determine the cost effectiveness of the
programs and if proper controls were in place to ensure program eligibility
guidelines were being met. Our specific audit objectives were to determine if
(1) TVA employees receiving vehicle allowances met the established eligibility
requirements and if proper controls were in place to determine eligibility criteria
were met, (2) TVA employees with assigned vehicles met the established criteria
for having an assigned vehicle and if proper controls were in place to determine
eligibility criteria were met, and (3) the cost effectiveness of both the vehicle
allowance and assigned vehicle programs.

Since our audit objective was to assess TVA’s system of internal controls related
to the vehicle allowance and assigned vehicle programs, the controls associated
with the programs were reviewed as part of this audit. To achieve our objectives,
we:

   Interviewed TVA personnel to determine the criteria TVA uses to determine
    who is eligible for a vehicle allowance.
   Reviewed a judgmental sample of approved vehicle allowance requests to
    determine compliance with stated criteria. We chose a random sample of
    25 allowance requests out of the 71 employees who received an allowance
    during our audit period using a random number generator. Additionally, we
    reviewed 12 allowance requests while performing specific audit steps
    designed to review employees (1) who received erroneous allowance
    amounts during the audit period and (2) whose allowance amount changed
    during the audit period. The result was 37 of 71 vehicle allowance requests
    reviewed. We chose this method of sampling due to the small size of the
    population. Because we included other sample items with our random
    selections, the results cannot be projected to the population.
   Reviewed controls in place to determine vehicle allowance eligibility criteria
    were met.
   Interviewed TVA personnel to determine the criteria TVA uses to determine
    who is eligible for an assigned vehicle.
   Reviewed a sample of assigned vehicles for compliance with stated criteria.
    We used a 95 percent confidence level with an expected error rate of
    5 percent and a precision probability of 3 percent to calculate a sample size of
    203 assigned vehicles out of the population of 4,254 vehicles assigned to an
    employee at September 30, 2010, or September 30, 2011. We chose this
    method of sampling due to the large size of the population and to have the
    ability to project to the population, which is possible with a statistical sample.
    (Note: Although we selected a sample of 203 vehicles, 3 of those vehicles
    were purged from the automated system used by Fleet, so we were not able
    to review them. We determined during our audit we would not need to project
    to the population, and therefore did not replace these three sample items.)
                                                                        APPENDIX A
                                                                         Page 2 of 2

OBJECTIVES, SCOPE, AND METHODOLOGY (cont.)
   Reviewed controls in place to determine assigned vehicle eligibility criteria
    were met.
   Compared the costs of the vehicle allowance and assigned vehicle programs.

When evaluating results of our audit work, we used both qualitative and
quantitative factors when considering the significance of an item. The
quantitative factors to be considered in determining an item’s significance were:

   If the dollar value of an error(s) exceeded 3 percent of the total amount spent
    on vehicle allowances during fiscal year (FY) 2011 ($19,442 is 3 percent of
    $648,050).
   If the projected error rate of vehicle assignments at year-end FY2010 and
    2011exceeded 10 percent.

The qualitative factors considered in determining an item’s significance were:

   If there were no controls in place to determine eligibility criteria were met.
   If there was no eligibility criterion in place.

The scope of the audit was all vehicle allowances paid out during FY2010 and
FY2011 and all vehicles assigned at September 30, 2010, and September 30,
2011, (to provide updated information for TVA management, we also obtained
more recent cost data from FY2012 where applicable). Our fieldwork was
conducted between September 2012 and January 2013. This performance audit
was conducted in accordance with generally accepted government auditing
standards. Those standards require we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.
APPENDIX B
 Page 1 of 3
APPENDIX B
 Page 2 of 3
APPENDIX B
 Page 3 of 3
